             OFFICE OF
      THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION

      BENEFIT PAYMENTS MANAGED BY
   REPRESENTATIVE PAYEES OF CHILDREN IN
PENNSYLVANIA’S STATE FOSTER CARE PROGRAMS


       December 2012   A-13-12-11245




    EVALUATION
      REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
MEMORANDUM


Date:      December 4, 2012                                                                    Refer To:

To:        Terry Stradtman
           Regional Commissioner
            Philadelphia

From:      Inspector General

Subject:   Benefit Payments Managed by Representative Payees of Children in Pennsylvania’s
           State Foster Care Programs (A-13-12-11245)

           OBJECTIVE
           Our objective was to identify children in Pennsylvania’s State foster care programs who
           were served by representative payees who may not have been suitable.

           BACKGROUND

           Some beneficiaries are not able to manage or direct the management of their finances
           because of their youth or mental or physical impairment. For such beneficiaries,
           Congress provided for payment to be made through a representative payee who
           receives and manages payments on the beneficiary’s behalf. 1 A representative payee
           may be an individual or an organization. The Social Security Administration (SSA)
           selects representative payees for Old-Age, Survivors and Disability Insurance (OASDI) 2
           and Supplemental Security Income (SSI) 3 beneficiaries 4 when representative payments
           would serve the individual’s interests.




           1
               Social Security Act §§ 205(j)(1)(A) and 1631(a)(2)(A)(ii); 42 U.S.C. §§ 405(j)(1)(A) and 1383(a)(2)(A)(ii).
           2
            The OASDI program provides retirement and disability benefits to qualified individuals and their
           dependents as well as to survivors of insured workers. Social Security Act § 201 et seq., 42 U.S.C. § 401
           et seq.
           3
            The SSI program provides payments to individuals who have limited income and resources and who are
           age 65 or older, blind, or disabled. Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.
           4
            We will use the term “beneficiaries” generically in this report to refer to both OASDI beneficiaries and
           SSI recipients.
Page 2 - Terry Stradtman


According to SSA policy, cases involving foster care are among the most sensitive. It is
essential that SSA protect the rights of children who may not be able to rely on their
parents to do so. Therefore, it is important that SSA follow its policy, including
completely investigating the individual or organization applying to be a representative
payee and using the payee preference list appropriately to ensure children in foster care
have the appropriate representative payee.

SSA policy states, “Foster care agencies have traditionally been among SSA’s most
dependable payees; however, their appointment as rep [representative] payee is not
automatic . . . [w]hen a child is removed from parental custody and the court places the
child in custody of a foster care agency, the agency has legal custody of the
child . . . .” 5 Sometimes, the foster care agency is also the child’s legal guardian. SSA
policy states that a child’s court-appointed legal guardian has a higher standing on the
payee preference list than an agency that has a custodial relationship. 6

The State foster care agency may not always know whether the child is receiving SSA
benefits. Therefore, States can use SSA’s State Verification Exchange System (SVES)
to determine whether the child is receiving benefits. If the child is receiving benefits, the
State foster care agency can apply to become the child’s representative payee.
However, SSA determines who is best suited to be the child’s representative payee.

Pennsylvania’s child welfare system is county-administered and State-supervised. The
Office of Children Youth and Families of the State of Pennsylvania’s Department of
Public Welfare (DPW) oversees the State’s foster care programs by assisting
individuals and licensing organizations that provide foster care homes for children.
DPW staff reported that DPW uses the Agency’s SVES to determine whether a child is
receiving Social Security benefits when that child enters foster care.

In April 2012, we conducted a computerized comparison of DPW foster care data with
SSA’s beneficiary records. The State of Pennsylvania comprises 67 counties. We
compared SSA’s records with foster care data for the six counties with the highest
number of children in foster care as of March 31, 2011—Allegheny, Berks, Delaware,
Lancaster, Luzerne, and Philadelphia. In 2011, about 57 percent of the children in
Pennsylvania’s foster care programs was in these six counties. See Appendix B for our
scope and methodology.




5
    SSA, POMS, GN 00502.159 A and B.2 (effective June 25, 2007).
6
    SSA, POMS, GN 00502.159 B.1 (effective June 25, 2007).
Page 3 - Terry Stradtman


RESULTS OF REVIEW
Our April 2012 computerized data comparison of foster care data for 6 Pennsylvania
counties and SSA records identified 130 children 7 served by representative payees who
may not have been suitable. These children had representative payees who were not
the county-based foster care program or the foster care parent. The representative
payees serving these children managed about $707,000 in benefit payments, annually. 8
Based on SSA’s records, the payees included such individuals as the children’s
mothers, fathers, relatives, or other non-relatives.

In total, we identified 623 children in foster care programs receiving Social Security
payments managed by representative payees. In addition to the 130 children described
above, 431 children had county-based foster care programs as the representative
payees, and the remaining 62 children had their foster care parents as the payee of
record. See Table 1 for details.

          Table 1: Representative Payees for Children in Allegheny, Berks, Delaware,
             Lancaster, Luzerne, and Philadelphia County Foster Care Programs
                         Payees Are                              Payees Not the
                        County-Based        Payees Are        County-Based Foster
     Type of SSA         Foster Care        Foster Care         Care Programs or            Total
        Benefit           Programs            Parents          Foster Care Parent 9        Children
    OASDI                    372                27                       68                  467
    SSI                       52                30                       60                  142
    OASDI & SSI                7                 5                        2                   14
    Total                    431                62                      130                  623

Of the 130 children we identified, 41 (32 percent) were under age 10 as of
March 31, 2012, the last day of the last full month before we conducted our
computerized data comparison. See Table 2 for details.




7
  On August 28, 2012, DPW staff indicated that after our April 4, 2012 computerized data comparison, the
foster care program applied to serve as representative payee for 7 of these 130 children.
8
 We multiplied the April 2012 benefit payment amount for each child by 12 to compute annual benefit
payments. Since benefit payment amounts and entitlement status can vary from month to month, this
number represents an estimate of annual benefits managed.
9
    Id.
Page 4 - Terry Stradtman


                  Table 2: Age Range of Children as of March 31, 2012
                  Age Range                   Number of Beneficiaries
                  < 5 Years                              17
                  5 to 9 Years                           24
                  10 to 14 Years                         27
                  15 to 17 Years                         60
                  > 18 Years                             2
                  Grand Total                                           130

We conducted similar comparisons using foster care data from four States. 10 For these
reviews, we reported the results of SSA’s assessments of selected payees who were
not foster care programs or foster care parents. For each State, SSA reviewed a
sample of the payees serving those children to determine whether they were
appropriate.

Of the 189 children reviewed in the 4 states, SSA determined 54 had payees who
misused about $225,000 in benefits. At the time of our reviews, we estimated about
294 children in foster care in Florida, Michigan, and Indiana had payees who misused
about $1.3 million in benefit payments. 11 Additionally, if the Agency took no action to
identify and replace payees who misused Social Security payments, we projected an
additional $1.4 million in benefit payments were at risk of misuse during the following
12 months in these three States.

CONCLUSION AND RECOMMENDATION
Our review of Pennsylvania foster care records for 6 counties identified 130 children
whose representative payees were neither the foster care parent nor a county-based
foster care program and therefore may not have been suitable. We believe these
children’s benefits were at risk of misuse since these payees may not have been using
the funds for the children’s current and foreseeable needs. We recommend the Agency
conduct assessments for the 130 representative payees identified to determine whether
the payees are suitable, and if necessary, refer suspected misuse to our Office of
Investigations.




10
  See the following reports for results of work completed pertaining to children in foster care in Maryland,
Florida, Indiana, and Michigan: Benefit Payments Managed by Representative Payees of Children in
Foster Care (A-13-07-17137), June 17, 2010; Benefit Payments Managed by Representative Payees of
Children in the Florida State Foster Care Program (A-13-11-11173), March 19, 2012; and Benefit
Payments Managed by Representative Payees of Children in Foster Care in the Social Security
Administration’s Chicago Region (A-13-11-21105), June 18, 2012.
11
  We intended to provide the Agency with 100 percent of the children we identified; therefore, we did not
perform any sampling or projections for our review of children in foster care in Maryland: SSA OIG,
Benefit Payments Managed by Representative Payees of Children in Foster Care (A-13-07-17137).
Page 5 - Terry Stradtman


AGENCY COMMENTS AND OIG RESPONSE
SSA disagreed with our recommendation. The Agency indicated the report did not
contain sufficient analysis to support the recommendation. However, results of similar
computer comparisons using foster care data from four other States are included in the
report. Based on SSA’s assessments of representative payees for Maryland, Florida,
Michigan, and Indiana who served 189 children, Agency staff determined 54 had
payees who misused about $225,000 in benefits. Projecting the results to the
population, we estimated about 294 children in foster care in Florida, Michigan, and
Indiana had payees who misused about $1.3 million in benefit payments. In response
to our recommendations for children in these three States’ foster care programs, SSA
agreed to review the cases we identified. We estimated that if the Agency took no
action to identify and replace payees who misused Social Security payments, an
additional $1.4 million in benefit payments were at risk of misuse during the following
12 months in those three States. SSA’s assessments were conducted of payees who
were not foster care programs or foster care parents. We conclude this information is
sufficient to warrant our recommendation. See Appendix C for the Agency’s comments.




                                        Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgment
                                                         Appendix A

Acronyms
DPW      Department of Public Welfare
IDCS     State of Indiana Department of Child Services
OASDI    Old-Age, Survivors and Disability Insurance
OIG      Office of the Inspector General
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
SVES     State Verification Exchange System
U.S.C.   United States Code
                                                                          Appendix B

Scope and Methodology
To accomplish our objective, we:
     Obtained and reviewed applicable Federal laws and sections of the Social Security
      Administration’s (SSA) regulations, policies, and procedures.

     Identified, obtained, and reviewed copies of prior relevant audit reports.

     Interviewed SSA and State of Pennsylvania Department of Public Welfare (DPW)
      officials.

     Reviewed foster care data for the State of Pennsylvania as of March 31, 2011.

      o Based on these data, we determined 57 percent of the children in foster care in
        the State of Pennsylvania resided in six counties. We selected the children in
        these foster care programs for review.

      o Requested and obtained from DPW an electronic data extract of children in the
        following six county-based foster care programs as of March 1, 2012.

              Children in Allegheny, Berks, Delaware, Lancaster,
                Luzerne, and Philadelphia County Foster Care
                         Programs as of March 1, 2012
             County               Records       Percent of Total
               Allegheny           1,417              18
               Berks                571                7
               Delaware             490                6
               Lancaster            464                6
               Luzerne              422                5
               Philadelphia        4,394              57
             TOTAL                 7,758             100 1

         Used SSA’s Enumeration Verification System to validate the Social Security
          numbers for the foster care data of the six counties.

         Conducted a computerized comparison of the children’s records provided by
          DPW with SSA's Master Beneficiary and Supplemental Security Records to
          determine the:


1
    This column does not add due to rounding.


                                                B-1
       o Number of children in the county-based foster care programs receiving Old-
         Age, Survivors and Disability Insurance and/or Supplemental Security Income
         payments from SSA managed by representative payees.

       o Relationship between the child beneficiaries and their representative payees
         (that is, parent or foster care agency).

      Informed the Agency and DPW of the results of our computerized comparison of
       DPW and SSA information.

We performed our review at SSA’s Headquarters in Baltimore, Maryland, from April to
August 2012. We tested the data obtained for our review and determined it to be
sufficiently reliable to meet our objective. We conducted our review in accordance with
the Council of the Inspectors General on Integrity and Efficiency’s Quality Standards for
Inspection and Evaluation.




                                          B-2
                                                                       Appendix C

Agency Comments
November 06, 2012

Subject: Philadelphia Region Response - Signed Draft Report (A-13-12-11245)

Thank you for the opportunity to comment on the draft report of OIG Audit No.
A-13-12-11245, “Benefit Payments Managed by Representative Payees of Children in
Pennsylvania’s State Foster Care Programs”. We disagree with the only
recommendation made (i.e., SSA conduct assessments for the 130 representative
payees identified to determine whether the payees are suitable, and if necessary, refer
suspected misuse to our Office of Investigations) as the report did not contain sufficient
analysis to support this recommendation.

The draft report states that DPW staff reported that DPW uses the Agency’s State
Verification Exchange System to determine whether a child is receiving Social Security
benefits when that child enters foster care. However, there are valid reasons that a
parent or other relative would be a suitable payee for a child in the custody of a foster
care (FC) agency. Some of them are:

   •   Short term placement – the goal is to reunite the child with the parent but the
       parent is not currently able to have physical custody (e.g., Short term psych
       hospitalization)
   •   Child under legal custody of FC Agency, but placed with parent under
       supervision – the goal is to keep child in the home
   •   Child placed with other relative (e.g., aunt or grandmother) by FC Agency – not
       official foster care parent
   •   Child returns to home on weekends – parent must maintain home and provide
       clothing etc.
   •   The Foster Care Agency wants parent to remain payee as parent is in frequent
       contact with child and uses funds for child’s expenses. This is especially the
       case if the child is entitled to a small monthly benefit amount. (The report states
       that SSA should use the payee preference list. On this list a parent without
       custody, who shows strong concern, is placed higher than a custodial institution.)

Terry M Stradtman
Regional Commissioner
Philadelphia Region
                                                                         Appendix D

OIG Contacts and Staff Acknowledgment
OIG Contacts

   Shirley E. Todd, Director, Office of Audit, Evaluation Division

   Randy Townsley, Audit Manager

Acknowledgment

In addition to those named above:

   Gregory Trenchard, Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-13-12-11245.
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
